No. 19-941
In The
^uprBmB OInurt nf
Billy Daniel Raulerson, Jr.,
Petitioner,
V.

Warden,
Respondent.
CERTIFICATE OF SERVICE
I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 10th day of March, 2020, caused three copies of the Reply Brief in
Support of Petition for a Writ of Certiorari to be served via overnight mail and an
electronic version of the document to be transmitted via the Court’s electronic filing
system to:
Sabrina D. Graham
Senior Assistant Attorney General
Attorney General’s Office
Room 306
40 Capitol Square, SW
Atlanta, GA 30334
(404) 694-7975
sgraham@la'w.ga.gov
Counsel for Respondent

I

David W. DeBruin

